                               U. S. Department of Justice
                            Office of the Inspector General
                                             Audit Division




Audit Report


  The Immigration and
 Naturalization Service’s
System Data Pertaining to
Secondary Inspections at
  Selected Preclearance
         Airports
              THE IMMIGRATION AND NATURALIZATION SERVICE’S
             SYSTEM DATA PERTAINING TO SECONDARY INSPECTIONS
                   AT SELECTED PRECLEARANCE AIRPORTS

                                            EXECUTIVE SUMMARY


        The Immigration and Naturalization Service’s (INS) inspection program at airports
relies daily on INS inspection data maintained in the Treasury Enforcement
Communications System (TECS).1 Inspectors review travel history data, including the
results of prior inspections, when determining the admissibility of persons seeking entry
into the United States. Additionally, other federal entities and INS programs, such as
intelligence and counterterrorism, rely on these data to conduct some of their law
enforcement responsibilities. For example, according to the Acting Assistant
Commissioner for Inspections, the INS worked closely with the U.S. Department of State
and the Federal Bureau of Investigation (FBI) following the bombing of the World Trade
Center in 1993 to reconstruct events that resulted in the terrorists entering the
United States.

       Our audit focused on the INS’s system data pertaining to secondary inspections —
inspections of travelers who require a more detailed review than the standard inspection.
Our primary objective was to determine whether the INS’s data in TECS accurately
reflected referrals of travelers to secondary and included secondary inspection results.
We assessed data for three sites — the preclearance airports at Montreal, Toronto, and
Vancouver.2 According to INS statistics, these sites performed approximately
106,000 secondary inspections during FY 2000, or approximately 76 percent of the
secondary inspection activity at all preclearance airports and about 10 percent of the
secondary activity at all air ports of entry.

      Our tests showed that the INS’s data in TECS for the inspections performed at
Montreal and Vancouver were reliable; i.e., in general, inspectors accurately designated
whether travelers were referred to secondary and routinely recorded the results of
secondary inspections in TECS. However, the TECS data for the inspections at Toronto
          1
            TECS, which was developed and is maintained by the Customs Service (U.S. Department of the Treasury), is a
mainframe-based enforcement and inspection support system used by Customs, INS, and other federal agencies. The system was
developed to store information about people who are of interest to law enforcement agencies so that their entry into the
United States may be monitored or, if necessary, prevented. TECS supports the INS’s inspection activities and, thus, contains
inspection data on travelers who have entered or attempted to enter the United States.
         2
            Preclearance is the full inspection at foreign ports of U.S.-bound travelers and their luggage for immigration,
customs, public health, and agriculture purposes. Travelers who are precleared are able to enter the United States without
undergoing any other clearance checks upon their arrival. Preclearance decreases the inspection workload at U.S. airports
and allows inspectors to detect inadmissible persons prior to their arrival in the United States. As of the end of FY 2000,
preclearance was operating at 11 airports, 7 of which were in Canada. The remaining 4 preclearance airports were in Aruba,
Bermuda, and the Bahamas (2 airports).


                                                              -i-
were unreliable. Toronto’s inspectors entered the required referral designation and
secondary inspection results in TECS for only 3 percent of the approximately
51,000 secondary inspections performed during the audit period. Instead, the inspectors
primarily entered the data in the port’s stand-alone inspections tracking system. When
inspectors do not enter travelers’ referrals and secondary inspection results in the
INS’s centralized inspections system, inspectors determining the admissibility of those
travelers when they again seek entry into the United States will not have the benefit of
accurate and complete travel history information. The lack of reliable data could also
jeopardize other INS law enforcement efforts, including the INS’s ability to provide
assistance to other federal entities.

        During our analyses of the TECS data, we noted some material inconsistencies
between the data and the INS’s official statistics for the secondary inspection workload at
Vancouver. Therefore, we expanded our audit tests to assess whether the statistics
compiled from monthly port of entry data transmissions accurately reflected the number of
secondary inspections performed. Such statistics are used by INS managers to evaluate
field office performance and make operational decisions.

       Our tests identified that the INS’s statistics for the number of secondary inspections
performed at Montreal and Toronto were reliable. However, the statistics for Vancouver
significantly overstated the number of secondary inspections performed. As a result,
INS management should be aware that reliance on those statistics could lead to poor
decision making.

       We discussed our results, conclusions, and recommendations with the INS port
directors at Toronto and Vancouver and INS Headquarters officials from the Office of
Inspections and Office of Field Operations. Additionally, we provided draft copies of this
report to the INS. The INS concurred with all of our recommendations and provided
comments on the actions completed and planned to implement the recommendations.

       Additional information on our audit objectives, scope, and methodology is
described in Appendix I. Background information on the immigration inspection process
is provided in the Introduction section. The details of our work are contained in the
Findings and Recommendations section. The INS’s comments on the recommendations
are in Appendix II, and our summary of the actions needed to close the audit is in
Appendix III.




                                            - ii -
             THE IMMIGRATION AND NATURALIZATION SERVICE’S
            SYSTEM DATA PERTAINING TO SECONDARY INSPECTIONS
                  AT SELECTED PRECLEARANCE AIRPORTS

                                             TABLE OF CONTENTS


                                                                                                                         Page

INTRODUCTION ............................................................................................................... 1

FINDINGS AND RECOMMENDATIONS ....................................................................... 4

1.       TECS DATA PERTAINING TO SECONDARY INSPECTIONS
          AT TORONTO....................................................................................................... 4
         Recommendations .................................................................................................... 8

2.       INS STATISTICS FOR SECONDARY INSPECTION WORKLOAD
          AT VANCOUVER................................................................................................. 9
         Recommendations .................................................................................................. 11

APPENDIX I - Audit Objectives, Scope, and Methodology ....................................... 12
APPENDIX II - INS Comments on the Audit Recommendations ................................ 15
APPENDIX III - Office of the Inspector General, Audit Division,
                Analysis and Summary of Actions Necessary to Close Report........ 21
                                                     INTRODUCTION


        Travelers seeking entry into the United States must undergo an immigration
inspection to ensure that they conform with legal requirements for entry into the country.
In a standard inspection at an airport, known as a primary inspection, the inspector
examines the person's travel documents (passport, visa, etc.) for authenticity, verifies the
person's identity, queries law enforcement databases3 to see if there is any reason why the
person should not be admitted, asks basic questions pertinent to admissibility, and
completes portions of applicable INS forms. The goal of the primary inspection is to
quickly direct persons:

•        who are readily admissible to the other Federal Inspection Services (FIS)4 for the
         remainder of the inspection process or

•        whose admissibility cannot readily be determined to another INS inspector for a
         more detailed inspection, known as a secondary inspection.

       In a secondary inspection, the inspector is able to conduct more in-depth reviews
and perform tasks that cannot be completed within the limited time frame of the primary
inspection. For example, the inspector can query TECS to obtain the travel history of a
person, reasons for any prior referrals, and the end results of those inspections by date,
time, port of entry, and other conditions. Additionally, the inspector can query other law
enforcement databases, such as the National Law Enforcement Telecommunications
System (NLETS);5 search the traveler’s luggage; ask the traveler additional questions;
obtain sworn statements from the traveler; and take the traveler’s fingerprints or
photograph. As with the primary inspection, persons deemed to be admissible by the
secondary inspector are directed to the other FIS agencies for the remainder of the
inspection process. If an inspector determines that the traveler is not admissible, the
traveler is refused admission into the United States.

       To facilitate the inspection process, the INS uses TECS, an automated system that
allows inspectors to access and update law enforcement databases. To initiate a query of
these databases, the inspector enters traveler information, such as name and date of birth.
          3
            These databases contain lookout information on persons of interest to law enforcement agencies as well as historical
primary inspection data on individuals who have entered or attempted to enter the United States.

          4
            The FIS consists of the INS (U.S. Department of Justice), Customs Service (U.S. Department of the Treasury), Animal
and Plant Health Inspection Service (U.S. Department of Agriculture), and Public Health Service (U.S. Department of Health and
Human Services). The INS’s role is to protect the national interest by determining the admissibility of persons seeking entry into
the United States and denying entry to those who are inadmissible.
         5
             An NLETS query is used to search for state information on a traveler, such as state criminal history files.
TECS then compares the entered information to the databases and displays the results
(i.e., possible matches to lookout information and primary inspection results for attempts
to enter the United States during the preceding three months) on the inspector’s computer
screen. Using the results of the database query in conjunction with other components of
the inspection (e.g., the review of travel documents), the inspector admits the traveler into
the United States or refers the traveler to secondary inspection.

        INS policy requires primary inspectors to document their referral decisions in
TECS. To do this, TECS prompts the inspector to designate whether they have decided to
refer the traveler to secondary. The system default is No, which means that the inspector
can hit the Enter key to move on to the next step and, by doing so, the system will reflect
that the traveler was not referred to secondary. To designate that the inspector has decided
to refer the traveler, the inspector must enter a Y for Yes. After the inspector finishes the
data entry for the inspection, TECS automatically creates a travel history record for the
person that shows, among other things, the inspector’s designation as to whether or not the
inspection resulted in a referral to secondary. Additionally, if the inspector designated in
TECS that the traveler was referred, the system sends a notification to the secondary
inspectors and creates another record in which the secondary inspection results are to be
recorded.

       In addition to TECS, inspectors at Montreal and Toronto use the Forms Integration
Management System (FIMS), a database system developed by personnel in the INS’s
Buffalo District6 in 1993 that operates on a port of entry’s local area network (LAN).
FIMS was originally developed to automate the preparation of many of the forms used
during secondary inspections. Although the initial version of FIMS provided a means to
track some operational statistics, district personnel expanded the capabilities of the system
a few years later to provide for the collection and tracking of performance data related to
referrals and various aspects of the secondary inspection process.

        Because FIMS is a system that was developed by a district office to improve the
effectiveness of its own operations, the system was not designed to be integrated with
TECS (the mainframe-based system maintained by the Customs Service). Thus, the data
entered in TECS by inspectors during the inspection process do not upload to FIMS. As a
result, in order for the ports in the Buffalo District to benefit from the performance
measurement capability of FIMS, inspectors must also enter referrals and secondary
inspection results in FIMS. The process for entering such data is similar to the process in
TECS; i.e., designating a referral in FIMS creates a record in which secondary inspection
results are to be recorded. For security and other reasons, the INS data in TECS was
designed to be updated using established controlled-access procedures, not through
         6
             Both Montreal and Toronto report to the INS’s Buffalo District Office. (Vancouver, which does not use FIMS, reports
to the Seattle District Office.)


                                                             -2-
uploads from unofficial systems used at individual ports. Thus, entering data in FIMS in
lieu of TECS is not sufficient because FIMS data cannot upload to TECS.

       The Toronto port of entry began entering referrals and secondary inspection results
in FIMS in May 1997. Port officials told us that the use of FIMS allows them to obtain
beneficial management reports on port and inspector performance that TECS was not
designed to provide. For example, the Port Director indicated that FIMS generates reports
showing the number of secondary inspections performed and the average processing time
by inspector.

       The Montreal port of entry began entering referrals and secondary inspection results
in FIMS in April 1999. Port officials there told us that the use of FIMS facilitates the
secondary inspection process because the capabilities of the system allow them to display
selected data on a designated computer from which airline representatives can obtain the
status of travelers being processed in secondary. (The representatives need to know the
status of travelers to decide whether to delay the departure of flights.) By providing the
data in this manner, airline representatives no longer need to interrupt the secondary
inspectors.

       Unlike TECS data, which are centralized and accessible by INS inspectors at most
ports of entry, FIMS data are only maintained on a port of entry’s LAN and can only be
accessed by inspectors at that location. According to INS Headquarters officials, FIMS is
to be considered a supplement to TECS, not a replacement for it.




                                           -3-
                       FINDINGS AND RECOMMENDATIONS


1.     TECS DATA PERTAINING TO SECONDARY INSPECTIONS
       AT TORONTO

       The TECS data pertaining to the secondary inspections performed at the
       Toronto airport during FY 1999 were unreliable because inspectors often
       failed to designate referrals in TECS and primarily entered inspection
       results in FIMS instead of TECS. Toronto’s inspectors entered the required
       referral designation and secondary inspection results in TECS for only
       3 percent of the approximately 51,000 secondary inspections performed
       during the year. When inspectors do not enter such information in TECS,
       primary inspectors performing future inspections of the travelers will not
       know that they were referred to secondary on previous attempts to enter the
       country and, therefore, will not be able to consider the referrals when
       determining admissibility. Additionally, should the travelers again be
       referred for further inspection, secondary inspectors will not be able to
       consider and follow up on conclusions reached during prior secondary
       inspections or save time by taking advantage of work previously performed.
       Further, the lack of reliable referral and secondary results data could
       jeopardize other INS law enforcement efforts and preclude the INS from
       providing meaningful assistance to other federal entities.

       As previously mentioned, INS policy requires primary inspectors to designate their
referral decisions in TECS. Because the system default for the referral designation is No,
inspectors need only change the designation to Yes if they refer a traveler to secondary. If
inspectors fail to designate that they referred a traveler:

•      the travel history record in TECS will inaccurately reflect that the traveler was not
       referred, which could be interpreted during future inspections to mean that the
       traveler was admitted into the United States after the primary inspection, and

•      TECS will not create the system record in which secondary inspectors are required
       to document the results of the more detailed inspection, i.e., whether the traveler
       was allowed to enter the United States or refused admission.

       Despite the INS’s requirements, our analyses of TECS and FIMS data showed that
Toronto’s inspectors entered both the required referral designation and secondary
inspection results in TECS for only 1,337 (or about 3 percent) of the approximately
51,000 secondary inspections performed during FY 1999. Thus, Toronto’s TECS data

                                            -4-
could not be relied on to identify the travelers referred to secondary or the results of
secondary inspections.

       Instead of designating referrals through TECS, Toronto’s primary inspectors often
referred travelers to secondary through FIMS; i.e., the inspectors would use TECS to query
the law enforcement databases but then switch to FIMS to designate the referral without
changing the TECS referral designation to Yes.7 Specifically, our analyses showed that
11,744 secondary inspection records in FIMS had corresponding TECS records which
inaccurately showed that the travelers had not been referred to secondary. For example, on
June 9, 1999, a traveler presented himself for inspection at the Toronto airport at
approximately 1:30 p.m. Although the FIMS data showed that this traveler had been
referred to secondary and subsequently denied admission into the United States, the
corresponding TECS travel history record showed that the traveler had not been referred
by the primary inspector for further inspection.

       In addition to Toronto’s primary inspectors not routinely designating referrals in
TECS, further analyses showed that, even when the inspectors designated referrals as
required, secondary inspectors rarely entered the results of the more detailed inspections in
TECS. Specifically, our analyses showed that, of the 35,030 referrals made through
TECS, inspectors entered the results for only 1,337 (or about 4 percent).8 Instead,
inspectors primarily entered the results in FIMS.

        When inspectors do not enter travelers’ referrals and secondary inspection results in
TECS, inspectors performing future inspections of those travelers will not have the benefit
of that data when determining admissibility. For example, when primary inspectors query
the law enforcement databases, the 3-month travel history information displayed on their
computers will inaccurately show that prior primary inspections did not result in referrals
to secondary. Thus, the inspectors will not be aware of the referrals and, therefore, will not
be able to consider them along with the other components of the inspection (e.g., the
review of travel documents and responses to questions) when determining admissibility.
This could lead to the inspectors admitting travelers into the United States who otherwise
might be referred to secondary and subsequently refused. When the travel history
information available to secondary inspectors does not include evidence of prior referrals
to secondary or the results of those inspections, the inspectors will not be able to consider

          7
            Primary inspectors at Montreal started inspections using TECS and completed the data entry for the inspection in
TECS, to include changing the referral designation to Yes, before they switched to FIMS to enter referral information. Although
this method resulted in primary inspectors duplicating some work, port management said it was worth it because the method
allowed airline representatives to obtain needed information on the status of travelers without interrupting the secondary inspectors.
(See page 3 for further discussion.)
          8
            Our analyses of the 1,337 TECS records with secondary inspection results showed no trends; i.e., results data were
entered by various inspectors throughout the year and the results included admissions into the United States, as well as refusals.


                                                                -5-
and follow up on the conclusions reached previously, including any refusals.9 This could
lead to secondary inspectors admitting travelers into the country who otherwise might be
refused10 or, at a minimum, result in inefficiencies in the secondary inspection process.
For example, if a secondary inspector did not enter their determination that a traveler with
a criminal record had obtained a waiver for all grounds of exclusion, another secondary
inspector during a future inspection may perform an in-depth review of the traveler when
only verification of the traveler’s status may be needed.

        The lack of accurate and complete data in TECS affects more than just inspectors
performing daily inspections. Other federal agencies and other programs within the INS,
such as counterterrorism and intelligence, rely on the referral and secondary results data to
accomplish some of their law enforcement responsibilities. For example, as mentioned
previously, the Acting Assistant Commissioner for Inspections told us that the INS worked
closely with the U.S. Department of State and the FBI following the bombing of the World
Trade Center to reconstruct the travel history on the terrorists. He also said that the INS
provides travel history data to the Drug Enforcement Administration, when requested, to
help with its efforts to track the movement of drug couriers. He further said that FIS
procedures at airports require INS secondary inspectors, when documenting the results of
their inspections, to record in TECS the reasons for any referrals to Customs so that its
inspectors, upon viewing the system information, can best focus their inspections. The
Acting Assistant Commissioner and other INS officials said that, within the INS, the
referral and secondary results data are used:

•         as a source for creating and updating lookouts and intelligence reports and
          reconstructing travel patterns of individuals or groups (e.g., persons suspected of
          smuggling aliens),

•         to substantiate the legitimacy of and resolve complaints against the INS (e.g., if a
          traveler claimed to have been routinely referred to secondary for no justifiable
          reason during several trips to the United States), and

•         for evaluating port performance and making operational decisions.


          9
             A primary or secondary inspector may become aware of prior referrals to secondary and the results of those inspections
if a lookout record exists which details that information. A secondary inspector may also become aware of that information
through statements made by the traveler, in which case it would be incumbent on the inspector to follow up on such information.
          10
             For example, by analyzing the secondary data in TECS for a traveler’s prior attempts to enter the country, a secondary
inspector may establish that the traveler’s statements during the current inspection are untruthful. The willful misrepresentation of
a material fact to gain admission into the United States is grounds for inadmissibility under the Immigration and Nationality Act.
Without the information from the prior inspections, the inspector may not detect the misrepresentation and may admit the traveler
into the country even though they should be refused.


                                                               -6-
        We discussed the usage of TECS with the Port Director at Toronto. The
Port Director was not aware that primary inspectors were not always designating referrals
to secondary in TECS and agreed that having that information in TECS is important. The
Port Director was aware that inspectors were not always entering the results of secondary
inspections in TECS but thought that had improved beginning in FY 2000. He told us that,
at a district meeting of Port Directors in mid-1999, they were directed to ensure that
secondary information was being entered in TECS. He said that he, in turn, discussed the
matter with port supervisors who instructed the inspectors to enter the information in
TECS.

         The Port Director explained that Toronto’s steady, high volume of passengers made
it difficult to maintain both TECS and FIMS. He said that, to him, it was more important
for secondary inspection data to be entered in FIMS because that system is more useful to
port management. Specifically, he said that FIMS data is used for annual performance
appraisals. Nevertheless, the Port Director said that in October 1999 he assigned a
supervisory immigration inspector the collateral duty of ensuring that secondary results
would be entered in TECS, which was why the Port Director thought that the FY 2000 data
would show improvement in that area.

        We analyzed TECS data for a 1-week period in April 2000 to determine whether
Toronto’s inspectors had improved with respect to entering secondary inspection results in
TECS. Our analyses showed that the inspectors did not enter secondary results for 488 (or
78 percent) of the 623 secondary referrals made through TECS. Although a 22-percent
rate of entering secondary data in TECS is an improvement over the FY 1999 rate of
4 percent, it is still unacceptable.

        We also discussed Toronto’s usage of TECS with INS Headquarters officials from
the Office of Inspections and the Office of Field Operations. The Acting Assistant
Commissioner for Inspections and the Director of Field Operations told us that they were
aware that the use of locally developed systems, such as FIMS, had resulted in some ports
not routinely using TECS. The officials explained that the INS had attempted to develop a
new inspections system that incorporated the desirable features of FIMS (e.g., preparation
of forms and management reports). According to the officials, unlike the locally
developed systems, the INS system was to be linked with TECS. Thus, the use of the new
INS system would have provided ports the improved processes of the locally developed
systems, yet would have still maintained the inspection data centrally. The officials said
that the development of the improved inspections system was discontinued in FY 1999 due
to a lack of funding.

       The Acting Assistant Commissioner for Inspections stressed that it was critical that
inspectors enter referral and secondary results data in TECS. He said that inaccurate
referral data and the absence of secondary results data in the INS’s centralized inspections
                                            -7-
system could compromise the integrity of the inspections process because inspectors
would not have access to information that could be valuable in developing the follow-up
questions necessary to determine admissibility and would be unknowingly considering
false or incomplete data when making such determinations. He said that entering referral
and secondary results data in “homegrown” systems instead of TECS, as inspectors were
doing in Toronto, provides no help to inspectors at other ports who need access to
complete travel history data during subsequent inspections of travelers.

       In addition to the above, the Acting Assistant Commissioner said that, while the
importance of entering the referral and secondary results data in TECS may not seem
evident during an individual traveler’s inspection, the importance becomes abundantly
evident when that data is subsequently needed to help identify persons who are a threat to
national security, involved in criminal activity, or seeking entry into the United States for
other than legitimate reasons.


Recommendations

       We recommend that the Acting INS Commissioner:

1.     Ensure that primary inspectors at the Toronto airport routinely designate referrals to
       secondary in TECS.

2.     Ensure that secondary inspectors at the Toronto airport routinely record results of
       secondary inspections in TECS.

3.     Evaluate whether reviews of other ports of entry are warranted to ensure that
       inspectors are routinely entering secondary referrals in TECS, as well as the results
       of secondary inspections.




                                             -8-
2.        INS STATISTICS FOR SECONDARY INSPECTION WORKLOAD
          AT VANCOUVER

          The INS’s FY 1999 statistics for Vancouver’s secondary inspection workload
          were significantly overstated because the methods used by Vancouver
          officials to prepare monthly activity reports incorrectly counted inspections
          of travelers with certain types of travel documents as completed in
          secondary rather than primary. As a result, INS managers cannot reliably
          use the statistics to evaluate port performance or make operational
          decisions.

        The Inspections Summary Report is the basic activity report used by the INS to
collect statistical data on the inspections program. The report summarizes various aspects
of INS inspection activity, including the number of inspections performed, primary
inspections resulting in admissions into the United States, and secondary inspections.
Ports of entry compile local statistics and enter their monthly reports into an automated
system designed to track inspection activity and other operational data. The system
combines the data to generate monthly, year-to-date, and annual INS-wide statistics.
According to INS policy, the Inspections Summary Reports are a basis for field office
performance evaluations, resource allocations, and a wide range of other analyses critical
to the agency’s mission.

       When comparing downloads of TECS data to the year-end Inspections Summary
Report for Vancouver, we noted that the number of secondary inspections shown on the
report was 64 percent higher than the number of secondary records in TECS. The report
showed 37,015 secondary inspections while TECS showed 22,550.11

        We discussed the differences noted between the reports and supporting TECS data
with the Port Director and other officials at Vancouver. The officials said that, until
July 1999, the number of secondary inspections shown on the reports was calculated using
a percentage of the total number of travelers inspected.12 The officials indicated that the
percentage used reflected port management’s decision to count some inspections as
completed in secondary, even if they were fully completed by primary inspectors (which
meant that the travelers were not referred to secondary for further processing). The
officials explained that inspections of travelers with certain types of travel documents take

           11
               Our tests to determine the reliability of the TECS data pertaining to secondary inspections identified that, in general,
inspectors at Vancouver accurately designated whether travelers were referred to secondary and routinely recorded the results of
secondary inspections in TECS. Therefore, we concluded that the TECS data for Vancouver could be used as a basis for evaluating
the reliability of the number of secondary inspections shown on the Inspections Summary Reports.
          12
           The officials said that the total number of inspections was derived from information provided by the airlines to
Customs Service officials at the airport.


                                                                -9-
longer than most primary inspections; thus, for reporting purposes, the officials considered
those inspections to be secondary work. One example of this practice pertained to
inspections of travelers transiting through the United States to another country without a
visa (known as Transit Without Visa or TWOV). The officials said that they considered
all inspections of TWOVs as secondary inspections, even though TWOV inspections are
completed in primary, if possible. The officials said that, in July 1999, they began using a
different method to calculate the number of secondary inspections; i.e., the number was
based on secondary inspections data in TECS but then adjusted to count some inspections
as completed in secondary instead of primary, such as inspections of TWOVs.13

       Because Vancouver’s methods for preparing its monthly Inspections Summary
Reports incorrectly counted some inspections of travelers as completed in secondary rather
than primary, the applicable INS statistics were inaccurate. For example, the FY 1999
Inspections Summary Report for Vancouver showed that all inspections of TWOVs, which
totaled 4,077, were completed in secondary. However, TECS data for the same period
supported that only 370 TWOVs were processed in secondary. Thus, Vancouver’s
secondary inspection statistics for the year were overstated by 3,707 (4,077 minus 370)
due to the method used for counting TWOV inspections.14

       We did not perform analyses to quantify the effect of Vancouver’s practice of
incorrectly counting other inspections as secondary work when they were completed in
primary. However, these additional overstatements would decrease the reliability of
Vancouver’s secondary statistics even further.

       Accurate statistical information on the number of secondary inspections could be a
valuable tool for INS managers in evaluating and improving port performance and making
operational decisions. However, because the statistics for Vancouver’s secondary
inspection workload were significantly overstated, INS management should be aware that
reliance on the statistics could lead to poor decision making.

       We discussed Vancouver’s methods for determining the number of secondary
inspections with officials from the Office of Inspections and the Office of Field
Operations. The Acting Assistant Commissioner for Inspections and the Director of Field
Operations agreed that the methods were not correct. The Acting Assistant Commissioner
said that the methods were contrary to all policy issued by INS Headquarters.

         13
            Our analyses of applicable TECS data and statistics for Montreal and Toronto showed that neither of these ports
counted inspections completed in primary as secondary inspections as Vancouver was doing.
         14
             The FY 1999 Inspections Summary Reports for Montreal and Toronto showed that neither of these sites counted all
inspections of TWOVs as secondary inspections. To the contrary, the reports showed that Montreal and Toronto counted the vast
majority of their TWOV inspections as completed in primary. (Montreal’s report showed that only about 6 percent of their
TWOV inspections were completed in secondary; Toronto’s report showed about 5 percent.)


                                                             - 10 -
Recommendations

     We recommend that the Acting INS Commissioner:

4.   Ensure that the Vancouver port of entry discontinues its practice of counting
     inspections of travelers as secondary inspections on its monthly Inspections
     Summary Reports if the travelers’ inspections were completed in primary.

5.   Evaluate whether reviews of other ports of entry are warranted to ensure that
     secondary inspections are accurately reported on monthly Inspections Summary
     Reports.




                                         - 11 -
                                                                            APPENDIX I

              AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY


Audit Objectives

       We audited the INS’s system data pertaining to secondary inspections at selected
preclearance airports. The specific objectives of our audit were to determine whether:

•     the INS’s data in the Treasury Enforcement Communications System (TECS)
      accurately reflected referrals of travelers to secondary and included secondary
      inspection results and

•     the INS’s official inspections workload statistics compiled from monthly port of
      entry data transmissions accurately reflected the number of secondary inspections
      performed.


Scope and Methodology

       We performed the audit in accordance with the Government Auditing Standards
and, accordingly, included such tests of the records and procedures as we deemed
necessary. However, we may not be considered by others to be completely independent of
the INS, as required by the standards, because the INS has reimbursed us for work that
pertained to INS fee-supported programs. Nonetheless, we consider ourselves independent
and do not believe that our reimbursement arrangement with the INS has had any effect
with regard to our conduct of the audit.

       In performing the audit, we reviewed selected documents; interviewed INS
personnel from the Office of Inspections, Office of Field Operations, and the Montreal,
Toronto, and Vancouver air ports of entry; analyzed various data pertaining to secondary
inspections for the above-named airports; and assessed operations at the Montreal airport.
The period covered by the audit was FY 1999. As shown in the table on the next page, the
secondary inspections performed during that period at the three sampled sites accounted
for approximately 73 percent of the secondary inspection activity at all preclearance
airports and about 12 percent of the secondary activity at all air ports of entry.




                                          - 12 -
                                                                                                              APPENDIX I

             FY 1999 INSPECTION ACTIVITY FOR SITES REVIEWED

                                                                                                 Secondary
                 Sites                                                                          Inspections
           All Air Ports of Entry                                                                  876,969

           All Preclearance Airports                                                               141,362

           Sites Reviewed
            Montreal                                                                                17,380
            Toronto                                                                                 48,294
            Vancouver                                                                               37,015
              Subtotal                                                                             102,689

           Sites Reviewed as Percent of All Air Ports of Entry                                      11.7 %

           Sites Reviewed as Percent of All Preclearance Airports                                   72.6 %
           Source: INS Inspections Summary Reports

           Note: Our analyses of INS data pertaining to the secondary inspections performed during FY 1999
           at the three sampled sites identified that the INS’s statistics for the secondary inspection workload at
           Vancouver were significantly overstated as discussed in the report beginning on page 9. Our
           analyses also identified that the statistics for Montreal and Toronto were understated by 1 percent
           and 5 percent, respectively. Because the understatements were immaterial, we concluded that
           Montreal’s and Toronto’s statistics were sufficiently reliable for evaluating port performance and
           making resource allocations.


        To achieve the audit’s objectives, we used computer-processed INS data contained
in TECS, the Forms Integration Management System (FIMS), and Inspections Summary
Reports. As mentioned in the report, TECS contains inspection data on travelers who have
entered or attempted to enter the United States, including travelers referred to secondary
inspection. FIMS, a database system used by the Montreal and Toronto airports to
facilitate the secondary inspection process, also contains data on travelers referred to
secondary. INS Inspections Summary Reports summarize various aspects of inspection
activity, including secondary inspections, for the ports of entry. We determined that the
objectives could best be achieved by analyzing 100 percent of the system records
pertaining to the secondary inspections at the three airports. Therefore, rather than
conducting tests of the INS’s management controls to determine the extent to which we
could rely on the controls to reduce data testing, we obtained downloads of needed
FY 1999 data and performed our analyses using those data.

        As discussed in the report, we determined that the TECS data for Toronto could not
be relied on to provide inspectors complete and accurate travel history information on
travelers who had previously been referred to secondary. Additionally, we determined that
the Inspections Summary Reports for Vancouver could not be relied on to provide
managers accurate information on the port’s secondary inspection workload.


                                                           - 13 -
                                                                                                                 APPENDIX I

        We used FIMS data to help identify the universe of travelers processed in secondary
at Montreal and Toronto. We assessed the reliability of the data by obtaining information
from port management and performing various tests. For example, we analyzed selected
fields in 100 percent of the FIMS records to ensure that key data elements were present
and excluded from our analyses the few records that did not actually represent referrals to
secondary.15 Although our tests did not include tracing each FIMS record to supporting
documentation, we concluded, based on the results of the tests performed and information
obtained, that the FIMS data were sufficiently reliable to achieve our audit objectives.

        There were no laws or external regulations directly applicable to our audit
objectives. Thus, there is no Statement on Compliance with Laws and Regulations in this
report.




          15
             FIMS was designed, in part, to track various port statistics, including some that are not related to secondary
inspections. As a result, some FIMS records do not represent referrals to secondary.
                                                               - 14 -
         APPENDIX II




- 15 -
         APPENDIX II




- 16 -
         APPENDIX II




- 17 -
         APPENDIX II




- 18 -
         APPENDIX II




- 19 -
         APPENDIX II




- 20 -
                                                                                                       APPENDIX III

      OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION
ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO CLOSE REPORT


      The INS response to the audit (Appendix II) concurred with all of our
recommendations and included actions completed and planned to address each
recommendation. This appendix summarizes our assessment of the response and the
INS actions needed to close the report.

Recommendation Number:

1.       Resolved. The INS response indicated that the Office of Field Operations,
         INS Headquarters, will issue a memorandum by March 31, 2001, to the
         Eastern Region requiring inspectors at the Toronto airport to designate in TECS16
         all referrals of travelers to secondary. The response also indicated that the Office of
         Field Operations, through the Eastern Region, will monitor the port’s performance
         for the remainder of the fiscal year to ensure that inspectors are designating referrals
         in TECS as required. This recommendation can be closed when we receive (1) the
         above-mentioned memorandum, (2) procedures for monitoring Toronto’s
         performance that will adequately determine if inspectors are routinely designating
         referrals to secondary in TECS, (3) results of monitoring efforts through the end of
         FY 2001, and (4) the Office of Field Operations’ assurance, based on the
         assessment of Toronto’s performance, that primary inspectors at the airport are
         routinely designating referrals to secondary in TECS.

2.       Resolved. The INS response indicated that the Office of Field Operations will issue
         a memorandum by March 31, 2001, to the Eastern Region requiring inspectors at
         the Toronto airport to record in TECS17 the results of all secondary inspections.
         The response also indicated that the Office of Field Operations, through the Eastern
         Region, will monitor the port’s performance for the remainder of the fiscal year to
         ensure that inspectors are entering the results of secondary inspections in TECS as
         required. This recommendation can be closed when we receive (1) the above-
         mentioned memorandum, (2) procedures for monitoring Toronto’s performance that

         16
             The portion of the INS response addressing this recommendation, which was signed by the Executive Associate
Commissioner, Office of Field Operations, referred to the Interagency Border Inspection System (IBIS) rather than TECS. As
explained in the INS response (see page 18), immigration inspectors at ports of entry use IBIS to access the TECS mainframe
database, which is where referral and secondary inspection results data are entered and maintained. Because other portions of the
INS response (see portions from the Acting Executive Associate Commissioner, Office of Programs, pages 18 and 20) make it clear
that actions will be taken to ensure that TECS will accurately reflect referrals of travelers to secondary and include secondary
inspection results, we took no exception with the INS’s response to this recommendation.
         17
            The portion of the INS response addressing this recommendation also referred to IBIS instead of TECS. For the
reasons described in the preceding footnote, we took no exception with the INS’s response to this recommendation.


                                                            - 21 -
                                                                        APPENDIX III

     will adequately determine if inspectors are routinely entering the results of
     secondary inspections in TECS, (3) results of monitoring efforts through the end of
     FY 2001, and (4) the Office of Field Operations’ assurance, based on the
     assessment of Toronto’s performance, that secondary inspectors at the airport are
     routinely recording the results of secondary inspections in TECS.

3.   Resolved. The INS response included a memorandum from the Acting Executive
     Associate Commissioner, Office of Programs, requesting that the Office of Field
     Operations check each airport by the end of FY 2001 to ensure that inspectors are
     routinely entering secondary referrals and the results of secondary inspections in
     TECS. The memorandum stated that procedures for conducting the reviews will be
     developed by the Office of Inspections by May 30, 2001. This recommendation can
     be closed when we receive (1) procedures for conducting the reviews that will
     adequately determine if inspectors are routinely entering secondary referrals and the
     results of secondary inspections in TECS and (2) a summary of the results of the
     completed reviews, including actions planned to ensure compliance for any airport
     found to be non-compliant.

4.   Resolved. The INS response indicated that the Office of Field Operations will issue
     a memorandum by March 31, 2001, to the Western Region requiring the Vancouver
     airport to discontinue its practice of counting inspections of travelers as secondary
     inspections on its monthly Inspections Summary Reports if the inspections were
     completed in primary. The response also indicated that the Office of Field
     Operations, through the Western Region, will monitor the port’s performance for
     the remainder of the fiscal year to ensure that monthly reports accurately reflect the
     number of secondary inspections performed. This recommendation can be closed
     when we receive (1) the above-mentioned memorandum, (2) procedures for
     monitoring Vancouver’s performance that will adequately determine if the
     secondary inspections recorded on monthly Inspections Summary Reports are
     accurate, (3) results of monitoring efforts through the end of FY 2001, and (4) the
     Office of Field Operations’ assurance, based on the assessment of Vancouver’s
     performance, that the port’s monthly Inspections Summary Reports accurately
     reflect the number of secondary inspections performed.

5.   Resolved. The INS response stated that the Office of Programs will institute
     procedures to regularly monitor monthly Inspections Summary Reports to ensure
     that airports are accurately recording secondary inspections. The response also
     stated that procedures to ensure that airports are accurately recording secondary
     inspections are currently being developed and will be disseminated to the field by
     May 30, 2001. This recommendation can be closed when we receive (1) procedures
     for airports that adequately describe the steps for recording secondary inspections,
     (2) confirmation that the procedures have been disseminated to applicable airports,
                                         - 22 -
                                                                  APPENDIX III

(3) procedures for monitoring monthly Inspections Summary Reports that will
adequately determine if airports are accurately recording secondary inspections, and
(4) results of monitoring efforts through the end of FY 2001, including actions
planned to ensure compliance for any airport found to be non-compliant.




                                   - 23 -
